September 8, 2008

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Southeast Area SmartPay
         Purchase Card Program (Report Number FF-AR-08-279)

This report presents the results of our audit of SmartPay Credit Card purchases by
personnel in the Southeast Area Office (Project Number 08BD006FF007). This audit is
part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. Click here to go to Appendix A for additional information about this audit.

Conclusion

Our audit identified no internal control and compliance issues with the Southeast Area’s
SmartPay Purchase Card program. Purchases were supported with documentation,
purchase approval procedures were followed, monthly reconciliation procedures were
followed, and SmartPay Credit Card Program Cardholder Accountability
Acknowledgment forms were complete. Purchases were made in accordance with
Postal Service procurement policies.

We did not make any recommendations in this report and, therefore, management
chose not to submit a formal response. In addition, management did not identify any
information that should be exempt under the Freedom of Information Act.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact John Wiethop,
Director, Field Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment
Fiscal Year 2008 Southeast Area SmartPay   FF-AR-08-279
 Purchase Card Program



cc: Susan M. Brownell
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Gwendolyn F. Green
    Stephen J. Nickerson
    Robin Stewart
    Katherine S. Banks
Fiscal Year 2008 Southeast Area SmartPay Purchase                              FF-AR-08-279
 Card Program


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program administered by the General Services Administration. The current
contractor is U.S. Bank, Minneapolis, Minnesota and the card company is VISA®. The
program within the Postal Service is called the SmartPay Purchase Card Program,
which Supply Management and Finance cosponsor. The Postal Service pays no
administrative fees for the services U.S. Bank provides and earns refunds based on the
aggregate volume of Postal Service transactions. Until recently, the purchase card was
commonly referred to as the International Merchant Purchase Authorization Card
(IMPAC). This was a registered U.S. Bank trademark name, but the bank no longer
uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,
Credit Card Policies and Procedures for Local Buying, October 2003 (updated through
October 26, 2006), and various manuals, handbooks, management instructions, and
locally issued guidance. This guidance requires cardholders to maintain
documentation, including approved purchasing requests, sales and credit drafts and
receipts, and delivery documentation. In addition, guidance issued January 4, 2008,
requires cardholders to maintain documentation supporting the timely review of monthly
statements by cardholders and approving officials.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures.
To accomplish this objective, we judgmentally selected a sample of transactions for
audit using the xxxxxxxxxxxx xxxxxxx xxxx xxx xxxxxxxxxx xxxx xxxx xxx xxx xxxxxxxxx
xxxxxx xxxxxxx xxxxxx. This approach resulted in a universe of 526 SmartPay
Purchase Card purchase transactions totaling $320,707. We selected the sample of
transactions based on risk factors such as type of purchases (i.e., meals and
communications) and vendors. Specifically, we judgmentally selected transactions that
were either restricted, prohibited, weekend purchases, or for purchases of pilferable
items. Using these risk factors, we selected 106 transactions totaling $164,346 made
from July 2007 through June 2008 by eight cardholders.




                                                    4
     Fiscal Year 2008 Southeast Area SmartPay Purchase                                       FF-AR-08-279
      Card Program


     We conducted this financial audit from July through September 2008 in accordance with
     generally accepted government auditing standards and included such tests of internal
     controls as we considered necessary under the circumstances. Those standards
     require that we plan and perform the audit to obtain sufficient, appropriate evidence to
     provide a reasonable basis for our findings and conclusions based on our audit
     objective. We believe the evidence obtained provides a reasonable basis for our
     findings and conclusions based on our audit objective. We discussed our observations
     and conclusions with management officials on August 14, 2008, and included their
     comments where appropriate.

     We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
     Accounting Data Mart. We performed specific internal control and transaction tests on
     this system’s data to include tracing selected purchase transactions to supporting
     documentation. We used Postal Service instructions, manuals, policies, and
     procedures as criteria to evaluate internal controls and data reliability. Finally, we
     interviewed supervisors and employees and observed operations.

     PRIOR AUDIT COVERAGE

                                                Final                      Non
                              Report           Report        Monetary    Monetary
       Report Title           Number            Date          Impact      Impact          Report Results
Fiscal Year 2007           FF-AR-08-012      11/18/2007         $2,792     $71,652   Cardholders made
Financial Installation                                                               purchases that were not
Audit – SmartPay                                                                     supported, paid taxes on
Purchase Card Program                                                                purchases that should
– Atlanta District –                                                                 have been exempt, and
Atlanta, Georgia                                                                     did not maintain declining
                                                                                     balances for bulk funded
                                                                                     purchases. Also,
                                                                                     cardholders and
                                                                                     approving officials did not
                                                                                     reconcile or certify
                                                                                     monthly statements and
                                                                                     track purchases, as
                                                                                     required.

Fiscal Year 2008 Capital   FF-AR-08-270      8/22/2008         N/A         N/A       Cardholders and
Metro Area SmartPay                                                                  approving officials did not
Purchase Card Program                                                                follow monthly
                                                                                     reconciliation procedures.




                                                         5
